         AUDIT REPORT

     REDACTED FOR PUBLIC RELEASE

           Audit of NRC’s Oversight of the
Access Authorization Program for Nuclear Power Plants


         OIG-10-A-21     September 30, 2010




 All publicly available OIG reports are accessible through
                     NRC’s Web site at:
 http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001




OFFICE OF THE
INSPECTOR GENERAL


                                          September 30, 2010


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations


FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF THE ACCESS
                            AUTHORIZATION PROGRAM FOR NUCLEAR POWER
                            PLANTS (OIG-10-A-21)

Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of the Access Authorization Program for Nuclear Power Plants.

The report presents the results of the subject audit. Agency comments provided at the
August 25, 2010, exit conference have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management
Audits, at 415-5911.

Attachment: As stated
             Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




BACKGROUND

     The Nuclear Regulatory Commission (NRC) has promulgated regulations
     requiring that its licensees implement an access authorization program to
     provide high assurance that individuals who are granted unescorted
     access and those individuals who maintain unescorted access to nuclear
     power plants are trustworthy and reliable and do not constitute an
     unreasonable risk to public health and safety, including the potential to
     commit radiological sabotage.

     NRC inspects licensee access authorization programs to verify that
     licensees are implementing programs in accordance with NRC regulations
     and the facilities’ security plans. Regional security inspectors conduct
     these inspections on a triennial cycle. Specifically, these inspectors look
     to provide assurance that a licensee’s access authorization program and
     its implementation process and procedures ensure individuals granted
     unescorted access are trustworthy and reliable.

     OFFICIAL USE ONLY – PARAGRAPH HAS BEEN REDACTED FOR
     PUBLIC RELEASE




     Sharif Mobley was arrested and charged in Yemen as a suspected
     member of al Qaeda in March 2010. Prior to his arrest, Mobley worked as
     a general laborer at six nuclear power plants in the United States between
     2002 and 2008. Mobley’s arrest prompted congressional interest and in
     early 2010, following Mobley’s arrest, Senator Charles Schumer and




                                        i
        Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


Congressman William Owens sent letters to NRC’s Inspector General
requesting a thorough and comprehensive review of NRC’s process
requirements for licensees granting unescorted access at nuclear power
plants.

In light of the Sharif Mobley incident, NRC is evaluating the access
authorization process and NSIR’s interface with the FBI’s Terrorist
Screening Center. NRC has made some initial enhancements to certain
aspects of the access authorization program.




The purpose of this audit was to determine the effectiveness of NRC’s
oversight of nuclear power plant access authorization programs.
Appendix A contains more information on the audit scope and
methodology.




This audit found that program performance could be enhanced by
implementing Office of the Inspector General (OIG) recommendations
regarding:

   Behavioral Observation Program training requirements.
   PADS database access.
   NRC’s procedures for screening individuals granted unescorted
   access.




OFFICIAL USE ONLY – PARAGRAPH HAS BEEN REDACTED FOR
PUBLIC RELEASE




                                   ii
      Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




OFFICIAL USE ONLY – PAGE HAS BEEN REDACTED FOR PUBLIC
RELEASE




                                 iii
        Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED FOR
PUBLIC RELEASE




This report makes recommendations to improve the agency’s oversight of
the access authorization program for nuclear power plants. A
consolidated list of these recommendations appears in Section V of this
report.




At an August 25, 2010, exit conference, agency senior managers
generally agreed with the audit findings and recommendations and
provided editorial suggestions for OIG’s consideration. This final report
incorporates revisions made, where appropriate, as a result of the
agency’s suggestions.




                                   iv
       Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




CFR          Code of Federal Regulations

FBI          Federal Bureau of Investigation

NRC          Nuclear Regulatory Commission

NSIR         Office of Nuclear Security and Incident Response

OIG          Office of the Inspector General

PADS         Personnel Access Data System

SSN          Social Security Number




                                  v
                   Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


TABLE OF CONTENTS

        EXECUTIVE SUMMARY ............................................................. i

        ABBREVIATIONS AND ACRONYMS ......................................... v

               I. BACKGROUND ............................................................. 1

               II. PURPOSE .................................................................... 8

               III. FINDINGS ..................................................................... 9

                 A. BEHAVIORAL OBSERVATION PROGRAM
                    TRAINING.................................................................... 10

                 B. PADS DATABASE ACCESS .......................................... 15

                 C. SCREENINGS PROCEDURES FOR INDIVIDUALS
                    GRANTED UNESCORTED ACCESS ................................. 19

        IV.    OBSERVATIONS ............................................................. 23

        V.     CONSOLIDATED LIST OF RECOMMENDATIONS ......... 26

        VI.    AGENCY COMMENTS ..................................................... 26

    APPENDIX

        A.     SCOPE AND METHODOLOGY ....................................... 27




                                                 vi
        Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants



I.   BACKGROUND

          The Nuclear Regulatory Commission (NRC) has promulgated
          regulations requiring that its licensees implement an access
          authorization program to provide high assurance that individuals
          who are granted unescorted access and those individuals who
          maintain unescorted access to nuclear power plants are
          trustworthy and reliable and do not constitute an unreasonable
          risk to public health and safety, including the potential to commit
          radiological sabotage. Following the terrorist attacks of
          September 11, 2001, the Commission issued a series of
          security orders to ensure that nuclear power plants continued to
          have effective security measures in place given the changing
          threat environment. Licensees revised their physical security
          plans, access authorization programs, security officer training
          and qualification plans, and safeguards contingency plans in
          response to these orders.




          Figure 1. Limerick Nuclear Power Plant
          Source: NRC


          Operating nuclear power plants need workers with unescorted
          access during normal operations and scheduled outages (power
          generation shutdowns) for required maintenance. Some




                                          1
              Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


                scheduled outages, such as refueling or steam generator
                overhaul, are quite extensive and time consuming. During a
                scheduled outage, a significant additional work force with
                specific skills is required. This type of work cycle leads to a
                continuous and ongoing need for temporary workers who must
                have access to nuclear power plants. Many of these workers
                move from one nuclear power plant, when the required work is
                completed, to the next plant that is commencing its maintenance
                outage.

                Congressional Requests for Audit

                Sharif Mobley was arrested and charged in Yemen as a
                suspected member of al Qaeda in March 2010. Prior to his
                arrest, Mobley worked as a general laborer at six1 nuclear
                power plants in the United States between 2002 and 2008.
                Mobley had unescorted access to these sites; however, he did
                not have access to safeguards information2 or computer
                systems. OFFICIAL USE ONLY – SENTENCE HAS BEEN
                REDACTED FOR PUBLIC RELEASE Based on discussions
                with affected licensees, NRC management stated that there was
                no evidence to indicate that Mobley had been “radicalized” prior
                to his most recent employment at Salem/Hope Creek.




1
 Sharif Mobley primarily worked at Salem/Hope Creek [New Jersey] (76 weeks). He also
worked at Three Mile Island [Pennsylvania] (2 weeks), Peach Bottom [Pennsylvania] (4
weeks), Limerick [Pennsylvania] (4 weeks), and Calvert Cliffs [Maryland] (2 weeks). The
Salem/Hope Creek power plants, although located next to each other, operate under
separate licenses.
2
  Safeguards information – An NRC categorization for information, which, if disclosed, could
reasonably be expected to have a significant adverse effect on the health and safety of the
public and/or the common defense and security by significantly increasing the likelihood of
theft, diversion, or sabotage of materials or facilities subject to NRC jurisdiction.

                                                2
              Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


                Mobley’s arrest prompted congressional interest and in early
                2010, following Mobley’s arrest, Senator Charles Schumer and
                Congressman William Owens sent letters to NRC’s Inspector
                General requesting a thorough and comprehensive review of
                NRC’s process requirements for licensees granting unescorted
                access at nuclear power plants.

                Obtaining Unescorted Access

                Unescorted access to a nuclear power plant allows an individual
                access to protected areas.3




                Figure 2. Nuclear Power Plant Security Zones
                Source: Nuclear Energy Institute




3
  Areas within the protected area that house equipment important for nuclear safety are
designated as vital areas. Access to a vital area is allowed only if an individual has been
authorized to be in that area. Licensees grant access to vital areas of the plant based on the
job specific duties of each individual. Licensees are required to establish a current access
authorization list for all vital areas. The access list must be updated by the cognizant licensee
manager or supervisor at least every 31 days and must be reapproved at least quarterly. The
licensee must include on the access list only individuals whose specific duties require access
to vital areas during non-emergency conditions.

                                                3
              Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


                Obtaining unescorted access requires that an individual
                satisfactorily complete all NRC regulatory requirements
                established in the access authorization program. The primary
                requirements that individuals must satisfy when initially applying
                for unescorted access and during periodic reinvestigations4
                consist of the following:

                    A background investigation that includes a verification of
                    true identity, employment verification with a suitable inquiry
                    (i.e., education in lieu of employment and military service as
                    employment), a credit check, and character and reputation
                    determination. Many licensees use specialized security
                    screening companies (contractors) to conduct these
                    background investigations, although the licensee is required
                    to adjudicate the results.

                    A criminal history check is used as an evaluative measure
                    to assist in the determination of whether the individual has a
                    record of criminal activity that may adversely affect his or her
                    trustworthiness and reliability. Licensees are required to
                    collect fingerprints from applicants and forward them to
                    NRC’s Division of Facilities and Security. The Division of
                    Facilities and Security acts as a conduit and submits the
                    fingerprints to the FBI to obtain the applicant’s criminal
                    history record information. The Division of Facilities and
                    Security sends the FBI investigation results to the licensees,
                    who use them in determining the trustworthiness and
                    reliability of an individual.

                    A psychological assessment that provides information to
                    identify indications of disturbances in personality or
                    psychopathology and to assist in evaluating the possible




4
  Most reinvestigations are required to be completed at intervals not to exceed 5 years,
although reinvestigations for individuals classified as belonging to the “critical group” are
required to be completed at intervals not to exceed 3 years. Critical group individuals have
extensive knowledge of defensive strategies and design and/or implementation of the plant’s
defense strategies.
                                                4
                Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


                      adverse impact of any noted psychological characteristics on
                      the individual’s trustworthiness and reliability.

                      Drug testing of all applicants for the use of illegal drugs
                      occurs during the initial application process for unescorted
                      access. Additionally, when a pre-access drug sample is
                      collected, the individual is then placed in an approved
                      random testing program that satisfies NRC requirements.

                  Maintaining Unescorted Access

                  Federal regulations5 require participating in a Behavioral
                  Observation Program and a Fitness-for-Duty Program to
                  maintain unescorted access. These programs are elements of
                  a licensee’s overall access authorization program that assist in
                  the oversight and monitoring of individuals granted unescorted
                  access. Behavioral Observation Program training educates
                  staff to recognize and report behaviors adverse to the safe
                  operations and security of the facility and/or aberrant behavior
                  that might adversely affect an individual’s trustworthiness or
                  reliability. A Fitness-for-Duty Program’s objective is to provide
                  reasonable assurance that individuals are not under the
                  influence of any substance that would adversely affect their
                  ability to safely and competently perform their duties.




5
    Title 10, Code of Federal Regulations (CFR), Part 26 subparts b & c, and 10 CFR 73.56.

                                                  5
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  Figure 3: Calvert Cliffs Nuclear Power Plant
  Source: NRC


  NRC’s Role in Access Authorization

  NRC inspects licensee access authorization programs to verify
  that licensees are implementing programs in accordance with
  NRC regulations and the facilities’ security plans. Regional
  security inspectors conduct these inspections on a triennial
  cycle. Specifically, these inspectors look to provide assurance
  that a licensee’s access authorization program and its
  implementation process and procedures ensure individuals
  granted unescorted access are trustworthy and reliable. If there
  are any inspection findings, inspectors also present these
  findings to the licensee's management and conduct followup
  inspections to ensure that the licensee has taken corrective
  action.

  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




                                  6
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  OFFICIAL USE ONLY – PAGE HAS BEEN REDACTED FOR
  PUBLIC RELEASE




                                  7
         Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




           OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
           FOR PUBLIC RELEASE




II.   PURPOSE

           The purpose of this audit was to determine the effectiveness of
           NRC’s oversight of nuclear power plant access authorization
           programs. Appendix A contains more information on the audit
           scope and methodology.




                                           8
        Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants



III. FINDINGS

          NRC’s access authorization requirements are intended to
          provide high assurance that individuals granted unescorted
          access to nuclear power plants are trustworthy and reliable and
          do not constitute an unreasonable risk to public health and
          safety, including the potential to commit radiological sabotage.
          Reports that Sharif Mobley, a suspected member of al Qaeda,
          worked at several nuclear power plants prompted congressional
          requests for the Office of the Inspector General (OIG) to
          conduct this audit. This audit found that program performance
          could be enhanced by implementing OIG recommendations
          regarding:

              Behavioral Observation Program training requirements.

              PADS database access.

              NRC’s procedures for screening individuals granted
              unescorted access.




          OFFICIAL USE ONLY – PARAGRAPH HAS BEEN
          REDACTED FOR PUBLIC RELEASE




                                          9
    Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


A. Behavioral Observation Program Training

      One of the Behavioral Observation Program’s stated objectives
      is to detect and report behavior that may constitute an
      unreasonable risk to the public health and safety, including a
      potential threat to commit radiological sabotage. OFFICIAL
      USE ONLY – SENTENCE HAS BEEN REDACTED FOR
      PUBLIC RELEASE




      Objective of the Behavioral Observation Program

      One of the Behavioral Observation Program’s objectives is to
      detect and report behavior that may constitute an unreasonable
      risk to public health and safety, including a potential threat to
      commit radiological sabotage. OFFICIAL USE ONLY –
      SENTENCE HAS BEEN REDACTED FOR PUBLIC RELEASE




      Behavioral Observation Program training is mandatory for all
      individuals who are designated for unescorted access or are
      maintaining their unescorted access to a nuclear power plant.




                                     10
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


  The training addresses the knowledge and abilities necessary to
  detect behavior or activities that potentially constitute an
  unreasonable risk and communicates the requirement to report
  noticeable changes in behavior, activities, or fitness-for-duty
  concerns about other individuals to management-designated
  personnel. The training program includes an initial
  comprehensive examination, annual refresher training, and an
  annual supervisory review by the individual’s immediate
  supervisor.




  Figure 5. Salem Nuclear Power Plant
  Source: NRC




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




                                 11
              Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


                OFFICIAL USE ONLY – SENTENCE HAS BEEN REDACTED
                FOR PUBLIC RELEASE NRC regional security inspectors,
                who routinely review licensee Behavioral Observation
                Programs, stated that the essence of the program is to provide
                personnel with unescorted access tools for how to recognize
                other employees who are abusing substances. The following
                table (Figure 4) illustrates some behaviors included, and not
                included, in current Behavioral Observation Program training.

        Training Includes Recognizing
        and Reporting:

 Personal Health Behaviors

        Drug and alcohol abuse
        Sleepiness-yawning, tired eyes                      OFFICIAL USE ONLY –
        Increased irritability                              SECTION HAS BEEN
        Shaky hands or twitching                            REDACTED FOR PUBLIC
        Dizziness/Fainting                                  RELEASE



 Social Interaction Behavior

        Temper outbursts
        Refuses social contact
        Overly suspicious of others


Figure 4. Behavioral Observation Program training comparison
Source: OIG generated




                                               12
    Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




      OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
      FOR PUBLIC RELEASE




OFFICIAL USE ONLY – SENTENCE HAS BEEN REDACTED FOR
PUBLIC RELEASE An internal industry investigation following the
Sharif Mobley incident uncovered that Mobley made statements to
other employees that could be construed as suspicious. Specifically,
one licensee investigative report uncovered that during Mobley’s
employment at a nuclear power plant, he stated, "We are brothers in
the union but if a Holy War comes, look out." Mobley also expressed
his belief that Islam is the only true faith and that non-Muslims are
infidels. Additionally, Mobley was observed with unusual Web sites on
his personal computer, including one with a picture of a mushroom
cloud. Although an employee who knew Mobley since 2002 was
aware of this information, this information was only brought to light
during the course of the investigation. OFFICIAL USE ONLY –
SENTENCE HAS BEEN REDACTED FOR PUBLIC RELEASE




                                     13
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  (Cont.) OFFICIAL USE ONLY – SENTENCE HAS BEEN
  REDACTED FOR PUBLIC RELEASE


  Recommendation

  OIG recommends that the Executive Director for Operations:

  1. OFFICIAL USE ONLY – RECOMMENDATION HAS BEEN
     REDACTED FOR PUBLIC RELEASE




                                 14
    Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


B. PADS Database Access




      OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
      FOR PUBLIC RELEASE




      Federal Control Standards

      The Government Accountability Office’s Standards for Internal
      Control in the Federal Government prescribes internal control
      standards for timeliness, accuracy, and validity of data. These
      standards require that management ensure there are adequate
      means for promptly recording transactions to maintain their
      relevance and value to management in controlling operations
      and making decisions.




                                     15
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




  Figure 6. Hope Creek Nuclear Power Plant
  Source: NRC




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




                                 16
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE



  Reliance on Licensees

  NRC regional inspectors request licensees to provide
  information from PADS during inspections or on a case-by-case
  basis if there is a need to query the database for a specific
  person of interest. Commonly, inspectors will request
  information by telephone or during nuclear power plant site
  visits. Licensees then extract the data or run an inquiry in
  PADS for the inspectors. One inspector reported that during
  site visits, inspectors must physically look over someone’s
  shoulder while they retrieve the information from PADS for the
  inspector to verify information presented by licensees. The
  majority of inspectors interviewed suggested it would be
  beneficial for NRC to have direct access to PADS.




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




                                 17
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




  Limited PADS access also restricts the inspectors’ ability to
  independently review and analyze PADS data for trends and
  exceptions prior to actually inspecting the licensee. The validity
  and/or completeness of licensee provided data is also an area
  of concern.

  Recommendation

  OIG recommends that the Executive Director for Operations:

  2. Obtain direct access to the Personnel Access Data System
     (PADS) database.




                                 18
     Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


C.   Screening Procedures for Individuals Granted Unescorted
     Access




       OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
       FOR PUBLIC RELEASE




       Figure 7. Peach Bottom Nuclear Power Plant
       Source: NRC


       Internal Control Requirements

       Control is any action taken by management to enhance the
       likelihood of achieving established objectives and goals.
       Control activities are the policies, procedures, techniques, and




                                      19
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


  mechanisms that enforce management’s directives. Federal
  standards require that NRC maintain a system of internal
  controls.




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




  Management Oversight

  NRC planned to develop guidance describing the roles,
  responsibilities, and expectations of the access authorization
  program manager to achieve successful oversight of nuclear
  power plant access authorization programs; however, no
  formalized guidance exists.




                                 20
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  OFFICIAL USE ONLY – PAGE HAS BEEN REDACTED FOR
  PUBLIC RELEASE




                                 21
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  OFFICIAL USE ONLY – SECTION HAS BEEN REDACTED
  FOR PUBLIC RELEASE




  Recommendation

  OIG recommends that the Executive Director for Operations:

  3. OFFICIAL USE ONLY – RECOMMENDATION HAS BEEN
     REDACTED FOR PUBLIC RELEASE




                                 22
                 Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants



IV.       OBSERVATIONS

                   Verification of True Identity

                  NRC regulations6 require that licensees validate the social
                  security number (SSN) that an individual provides prior to
                  granting access to a nuclear power plant. Licensees accomplish
                  SSN validations through background checks of employment
                  history, credit history, and reference checks. OFFICIAL USE
                  ONLY – SENTENCE HAS BEEN REDACTED FOR PUBLIC
                  RELEASE




                   Figure 9. Three Mile Island Nuclear Power Plant
                   Source: NRC


                  E-Verify is an Internet-based system, operated by the U.S.
                  Citizenship and Immigration Services, designed to help
                  employers determine employment eligibility of new hires and the
                  validity of their SSNs.




6
    10 CFR 73.56(d)(3), Verification of True Identity.

                                                  23
             Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




               OFFICIAL USE ONLY – PARAGRAPH HAS BEEN
               REDACTED FOR PUBLIC RELEASE




               U.S. Citizenship and Immigration Services management stated
               that under current law,7 use of the E-Verify database is
               restricted to confirming employment eligibility, thereby
               prohibiting NRC and licensees from gaining access to the
               system for verifying the SSNs for all licensee contractor
               employees.

               Required Disclosure of Past Employment Information

               Licensees are required to verify employment/unemployment
               history prior to granting access to a nuclear power plant.
               Background investigators are required to ask previous
               employers questions regarding an employee’s past
               performance. The past performance questions primarily focus
               on fitness-for-duty compliance and reason for termination. Both
               industry and NRC staff stated that many previous employers
               verify the dates of employment for an applicant, while refusing
               to answer the past performance questions for fear of litigation.
               When a licensee is unable to obtain past employment
               performance information from a previous employer, the use of
               “best effort” is permitted. Best effort allows a licensee to use
               employment information obtained from an acceptable alternate
               or secondary source to determine trustworthiness and reliability.
               An acceptable alternate source could be a co-worker or a
               reference on a current application for unescorted access, while
               an acceptable secondary source could be a pay stub or W-2
               form. OFFICIAL USE ONLY – SENTENCE HAS BEEN
               REDACTED FOR PUBLIC RELEASE

7
 Illegal Immigration Reform and Immigrant Responsibility Act of 1996, Public Law 104–208,
September 30, 1996.

                                              24
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants




  Disclosure of Foreign Travel

  Disclosure of foreign travel is not required on personal history
  questionnaires used to assist in processing background
  investigations of individuals seeking to obtain unescorted
  access to nuclear power plants. Requiring disclosure of foreign
  travel on personal history questionnaires was an idea conveyed
  to OIG during interviews. OFFICIAL USE ONLY – SECTION
  HAS BEEN REDACTED FOR PUBLIC




                                 25
         Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants



V.    CONSOLIDATED LIST OF RECOMMENDATIONS

           OIG recommends that the Executive Director for Operations:

           1. OFFICIAL USE ONLY – RECOMMENDATION HAS BEEN
              REDACTED FOR PUBLIC RELEASE

           2. Obtain direct access to the Personnel Access Data System
              (PADS) database.

           3. OFFICIAL USE ONLY – RECOMMENDATION HAS BEEN
              REDACTED FOR PUBLIC RELEASE




VI.   AGENCY COMMENTS

           At an August 25, 2010, exit conference, agency senior
           managers generally agreed with the audit findings and
           recommendations and provided editorial suggestions for OIG’s
           consideration. This final report incorporates revisions made,
           where appropriate, as a result of the agency’s suggestions.




                                          26
      Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants
                                                                             Appendix A


SCOPE AND METHODOLOGY

        The audit objective was to determine the effectiveness of NRC’s
        oversight of nuclear power plant access authorization programs.

        To achieve the audit objective, the audit team reviewed
        pertinent laws, regulations, and agency guidance to identify
        criteria relevant to managing nuclear power plant access
        authorization programs. Guidance reviewed included:

            Code of Federal Regulations, Title 10 Section 73.56,
            Personnel access authorization requirements for nuclear
            power plants, March 27, 2009.

            Illegal Immigration Reform and Immigrant Responsibility Act
            of 1996, Public Law 104–208, September 30, 1996.

            Nuclear Energy Institute procedure, Nuclear Power Plant
            Access Authorization Program, NEI 03-01 (Revision 3), May
            2009.

            Nuclear Energy Institute procedure, Guideline for Plant
            Access Training, NEI 03-04 (Revision 7), December 2009.

            The 2006 Memorandum of Understanding between the
            Terrorist Screening Center and NRC in support of terrorist
            screening.

            NRC Inspection Procedure 71130.01, Access Authorization,
            April 1, 2010.

        Auditors met with congressional staff to gain an understanding
        of the requested scope for this audit. In addition to conducting
        interviews with current and former NRC staff, auditors also
        interviewed an Access Authorization Program Manager and a
        background investigation contractor. Interviews with inspectors

        from each of NRC’s four regions were conducted. Auditors also
        reviewed access authorization files and analyzed reports. This
                               27
Audit of NRC’s Oversight of the Access Authorization Program for Nuclear Power Plants


  work gained auditors an understanding of NRC’s oversight of
  nuclear power plant access authorization programs. Current
  issues, problems, and known deficiencies were uncovered
  because of this work.

  This performance audit was conducted from April 2010 through
  July 2010, in accordance with generally accepted Government
  auditing standards. Those standards require that the audit is
  planned and performed with the objective of obtaining sufficient,
  appropriate evidence to provide a reasonable basis for any
  findings and conclusions based on the stated audit objective.
  OIG believes that the evidence obtained provides a reasonable
  basis for the report findings and conclusions based on the audit
  objective. Internal controls related to the audit objective were
  reviewed and analyzed. Throughout the audit, auditors were
  aware of the possibility or existence of fraud, waste, or misuse
  in the program.

  Beth Serepca, Team Leader; Robert Woodward, Audit
  Manager; Andrea Ferkile, Senior Management Analyst; and
  Michael Dickerson, Summer Intern, conducted this work. We
  performed this audit work at NRC headquarters in Rockville,
  MD; NRC Region I office in King of Prussia, PA; and Exelon
  Power Headquarters in Kennett Square, PA.




                                 28
